Memorandum from the Office of the Inspector General



May 30, 2008

E. Wayne Robertson, SP 5A-C

FINAL REPORT - SPECIAL PROJECT
REVIEW OF TVA’S PROCESS FOR HANDLING
LOST OR STOLEN COMPUTERS
OIG FILE NO. 20Z-315



Attached is the subject final report for your review and final action. Your written
comments, which addressed your management decision and actions planned or
taken, have been included in the report. Please notify us when final action is
complete.

If you have any questions, please contact me at (865) 632-3119 or Curtis D. Phillips,
Supervisory Special Agent, at (865) 632-2584. We appreciate the courtesy and
cooperation received from your staff during this review.



John E. Brennan
Assistant Inspector General
  (Investigations)
ET 4C-K

CDP:JEB:MSW
Attachment
cc (Attachment):
      William R. Brandenburg, Jr., MP 3B-C
      Tom D. Kilgore, WT 7D-K
      Ralph Edward King, WT 5A-K
      Melissa A. Livesey, WT 5B-K
      John E. Long, Jr., WT 7B-K
      Janice W. McAllister, EB 5B-C
      Gabrielle Anita Ratliff, WT 5B-K
      Emily J. Reynolds, OCP 1L-NST
      OIG File No. 20Z-315
Review of TVA’s Process for
Handling Lost
or Stolen Computers


     SPECIAL PROJECT – 20Z-315
             May 30, 2008
Synopsis
       We initiated a special project to determine if (1) TVA’s policies, procedures, and
        practices for handling lost or stolen computer equipment were adequate; (2) those
        policies, procedures, and practices were followed; and (3) the lost or stolen computers
        contained sensitive or restricted information. We found:
         –    TVA’s policies, practices, and procedures for maintaining an accurate inventory of
              computer equipment were not adequate. Since the August 2004 implementation
              of the HP Service Desk (HPSD), which contains an inventory of TVA computers,
              TVA has been unable to track over 5,550 computers. The inability to adequately
              track, as well as the lack of encryption, on these computers increases the risk for
              the disclosure of sensitive or restricted information.
         –    The policies for handling/reporting stolen computers were not consistently
              followed.
         –    At least one of the stolen computers contained personally identifiable information
              (PII)—employee social security numbers. We have not been able to confirm
              whether the remaining stolen computers contained sensitive or restricted
              information, although we believe the risk is moderate.



             *”Sensitive and “restricted” information are defined in Business Practice 29. Sensitive information includes
               Safeguards information and restricted information includes PII.


                                                                 2
Synopsis (continued)

       In a response to a draft of this report, management agreed with our recommendations,
        but disagreed with the characterization that TVA was unable to track over 5,000
        computers. That response is attached.
       We disagree with management’s position that they were able to track the computers in
        “lost” or “write-off” status. If management was able to track the missing computers, they
        should have recorded the correct status in HPSD, their inventory management system.




                                                 3
Objective, Scope, and Methodology
    Objective
       The objective was to determine if:
         –   TVA’s policies, procedures, and practices for handling lost or stolen computer
             equipment were adequate
         –   The policies, procedures, and practices were being followed
         –   The lost or stolen computers contained sensitive or restricted information
    Scope and Methodology
       Selected the period of May 1, 2006, to November 30, 2007, for the review of computers
        reported stolen to TVAP, information from HPSD for January and March 2008 showing the
        number of computers designated as “lost,” and a change request for May 2006 showing
        the number of computers reclassified from “lost” to “write-off.”
       Reviewed TVA’s policy, procedures, and practices for handling computer security incidents
        which include the handling of computers reported stolen
       Reviewed the policy and procedures for maintaining records for personal computer life
        cycle in HPSD
       Consulted TVAP and HPSD to identify the universe of the lost or stolen computers
       Interviewed TVA employees who reported a computer theft to TVAP
       Interviewed Information Services (IS) senior managers responsible for HPSD


                                                    4
Background

   How HPSD Tracks Inventory
      TVA utilizes HP Service Desk (HPSD) in conjunction with the System Management Server (SMS) to
       track the inventory and life cycle of computers. The system tracks configuration changes, service calls,
       software upgrades, and other information through the life cycle of a computer. Specifically:


        –    SMS scans the network on regularly scheduled intervals to identify PCs connected to the network.
        –    SMS passes the information it collects to HPSD.
        –    If SMS does not find a device that was formerly on the network, it records the device as lost in
             SMS and maintains the record for 30 days.
        –    When SMS deletes the record for the lost computer, HPSD changes the “Marked Lost Date” in its
             database to the current date, but continues to retain the current status of the computer.
        –    After 60 days, HPSD changes the status of the computer to “lost.”
        –    If the computer is reattached to the network and rediscovered by SMS, it is reentered in HPSD
             with a status of “production.”
        –    A Change/Work Order is requested to change the status of a computer from production to
             “removed” when the computer is sent to Procurement to be retired (and subsequently surplused).
        –    The status is changed to retired only when Procurement liquidates the computer.




                                                         5
Background (continued)
    TVA Policy—Stolen Computers
       TVA’s Computer Security Incident Handling Procedure and related training
        material define a computer security incident to include the theft of computer
        equipment
       The policy also establishes the following roles and responsibilities for
        handling computer thefts
         – End-user reports the theft to the IT Service Center (ITSC), IT Security,
           TVA Police (TVAP), or OIG
         – ITSC, TVAP, or OIG reports the incident to IT Security
         – IT Security staff:
                 May serve as the Incident Commander
                 Performs an initial assessment
                 Develops an incident response plan, if necessary
                 Maintains an incident database
                 Reports the incident, as appropriate


                                                   6
Finding 1—Inadequate Process for
Tracking Computers
       TVA’s policies, procedures, and practices for maintaining an accurate inventory record
        of personal computers in HPSD were not adequate. Since the August 2004
        implementation of the HPSD, TVA has been unable to track over 5,550 computers.
         –   IS personnel agreed their inventory process was not working correctly and stated
             a significant number of the computers classified as “lost” were misclassified
         –   IS implemented HPSD in August 2004 to maintain an inventory and track the
             lifecycle of PCs on the network. Since that time:
                  IS moved 5,031 PCs from a “lost” status to a “write-off “ status in May 2006.
                     – Management defined “lost” status as PCs no longer connected to the
                       network.
                     – Management used the “write-off” status to record a one-time move of
                       PCs from “lost” as management began to disposition for lifecycle
                       management.
                  At the end of March 2008, HPSD reflects 3,014 computers in “lost” status
                   and 2,536 in “write-off” status for a total of 5,550.




                                                  7
Finding 1—Inadequate Process for
Tracking Computers (continued)
       In the attached response, management disagreed with the characterization that
        TVA was unable to track over 5,000 computers. Management advised the “lost”
        and “write-off” status were used only for lifecycle purposes and they would
        introduce a “not connected” status to better reflect the status of computers.
        Management further stated they had properly dispositioned 1,428 computers.
       We disagree with management’s position that they were able to track the
        computers in “lost” or “write-off” status. If management was able to track the
        missing computers, they should have recorded the correct status in HPSD, their
        inventory management system.




                                             8
Summary of Computers with Lost Status
by Organization Effective January 2008
    1200



    1000   973



    800
                 662
                       594
    600



    400
                             305   302   298


    200
                                                   111                  122
                                                         62   42   37
      0




                                               9
Summary of Computers with Lost Status
by Employee Status Effective January 2008


    2500

           1990
    2000


    1500


    1000
                  612
    500                 406   341
                                         174   158
                                                     5   1
      0




                                    10
Finding 1—Inadequate Process for
Tracking Computers (continued)
   Reasons for Lost Status
      According to Senior IS managers, computers drop out of inventory or
       become misclassified for several reasons
        – They were returned to stock for reissuance
        – HPSD contains duplicate entries
        – HPSD was not updated correctly when computers were retired and sent
          to surplus
        – They were actually lost or stolen
        – They are held in Radiological Controlled Areas
        – Some of the computers may never have been on the network, such as:
                Those held at the nuclear sites because they contain “Safeguards”
                 information
                Those behind firewalls in a process control environment
                Those used as data acquisition devices


                                           11
Finding 1—Inadequate Process for
Tracking Computers (continued)
    Planned Improvements to Inventory Process
       During our field work, IS initiated a review of the HPSD inventory process
        and developed a plan to improve the process. The plan addressed:
         – Improvements in the receiving process to ensure computers are
           recorded correctly in HPSD
         – Improvements to the retirement process to ensure computers sent to
           surplus are accurately recorded in HPSD
         – Improvements in the tracking and recovery process for computers
           disconnected for more than 30 days from the network
         – Clean up HPSD for cases where receiving procedures were not
           followed
         – Reconcile HPSD with surplus computer inventory, and work with
           owners to locate the remaining computers




                                            12
Finding 2—Noncompliance with Procedures
for Handling Stolen Computers
       TVA policies, procedures, and practices for handling
        computers reported as stolen were not followed
           TVAP received reports that 26 computer-related items, such as
            laptops, desk-tops, PDAs, & computer screens, were stolen
            during the period May 1, 2006, to November 30, 2007
           TVAP confirmed they generally did not notify IT Security when
            they received a report of a stolen computer
           IT Security specialists did not recall TVAP notifying IT Security
            of any computer thefts
           IT Security did not include the theft of computers in their
            computer security incident database and recalled receiving
            notification involving the theft of only one computer during the
            review period (May 2006 to November 2007) and they
            conducted an assessment of the information on the computer

                                        13
Finding 2—Noncompliance with Procedures
for Handling Stolen Computers (continued)
    Planned Improvements for Handling Stolen Computers
       TVA is planning to roll out an encryption project which will help
        secure information on computers if they are lost or stolen
       IT Security has a draft policy on Computer Security and
        Privacy Incident Response which better defines the roles and
        responsibilities of those involved. However, the policy has
        been in draft for several years.
       After being contacted during this project ,TVAP distributed an
        e-mail to all TVAP Commanders reminding them to notify IT
        Security of all reported computer thefts
       IT Security is planning an awareness article for all TVA
        employees to be published in Inside TVA




                                         14
Finding 3—PII and Sensitive Information
on Stolen/Lost Computers
       One of the laptops reported stolen contained employee social
        security numbers because the user saved copies of employee
        service reviews completed prior to the implementation of employee
        identification numbers
       There is a moderate risk other sensitive or restricted information was
        disclosed on the computers reported stolen because:
         – The stolen computer users included a RAD Protection Manager,
           Nuclear Electrical Engineers Manager, Nuclear Electrical
           Maintenance Manager, and a Commercial Analyst
       The inability to track over 5,550 computers substantially increases
        TVA’s risk for the disclosure of sensitive or restricted information.
        However, until a complete review of the computers classified as
        “lost” is conducted, we do not have sufficient information to know the
        extent of that risk.

                                        15
Recommendations
      IS should:
        – Implement the planned improvement for the inventory process in
          HPSD
        – Implement the laptop encryption project
        – Initiate a project to locate the computers listed as lost in HPSD and
          perform a risk assessment to determine if any of the truly lost
          computers contained sensitive or restricted information
        – IS should develop a process to follow-up when the status of computer
          equipment moves to lost.
      Enterprise IT Security should:
        – Follow up and conduct a risk analysis on the computers reported as
          stolen
        – Finalize the draft policy on Computer Security and Privacy Incident
          Response
      TVA Management agreed with these recommendations and their planned
       actions are attached.
                                           16
                                                                        Appendix
                                                             Special Project
                                      Review of TVA’s Process For Handling Lost or Stolen Computers
                                                           OIG File No. 20Z-315



       Recommended Action Step                 Resp          Lead                                    Action Planned                               Estimated
                                               Dept                                                                                               Complete

Implement planned improvement for the           IO        Sam Boozer        Management agrees. Planned improvements will be documented            05/30/2008
inventory process in HPSD.                                                  and implemented.


Implement the laptop encryption project.        IO      Bill Brandenburg    Laptop encryption of My Documents folder was implemented on           03/28/2008
                                                                            3/26/2008. Any laptop that has been connected to TVA network          - complete
                                                                            since 3/26 has had the My Documents folder encrypted.

Initiate a project to locate the computers    IO/EITS        Sam            Management agrees. A project has been initiated to perform and        06/30/2008
listed as lost in HPSD and perform a risk               Boozer/Gabrielle    complete these tasks.
assessment to determine if any of the truly                 Ratliff
lost computers contained sensitive or
restricted information.


IS should develop a process to follow-up        IO        Sam Boozer        Management agrees. A process will be established.                     05/30/2008
when the status of computer equipment
moves to lost.


Follow-up and conduct a risk analysis on       EITS     Gabrielle Ratliff   Management agrees. EITS is working on streamlining the reporting      05/30/2008
the computers reported as stolen.                                           of missing and/or stolen computer equipment so that the appropriate
                                                                            notifications are made in a consistent manner. EITS will issue an
                                                                            awareness article for all TVA employees.


Finalize the draft policy on Computer          EITS     Gabrielle Ratliff   TVA SPP 12.9 - Computer Security and Privacy Incident Response        05/05/2008
Security and Privacy Incident Response.                                     has been finalized and was sent to Human Resource Services on
                                                                            4/15/2008 to be published.




05/02/2008
